HHS/OIG-Audit--"Review of Home Office Costs of Surgical Care Affiliates, Inc., (A-04-94-02091)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Home Office Costs of Surgical Care Affiliates, Inc.," (A-04-94-02091)
June 13, 1995
Complete
Text of Report is available in PDF format (137 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review, requested by the Health Care Financing Administration (HCFA), was made to validate reported home office costs
that HCFA will use in developing new ambulatory surgical center (ASC) payment rates and to determine if these costs were
reimbursable under Medicare regulations and guidelines. The review showed that of $13.3 million in home office costs charged
by Surgical Care Affiliates, Inc. (SCA) to its affiliated ASCs, $7.2 million did not meet Medicare requirements for reimbursement.
These costs included; (1) debt guarantee fees of $4.3 million; (2) management service fees of $2.4 million charged in excess
of costs; and (3) general and administrative expenses of $0.5 million for abandoned development plans, information systems
expenses, charitable contributions, and wages not paid. This information is being provided to HCFA officials for use in
developing new ASC facility payment rates. No other recommendations are being made at this time.